October 24, 2002

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

JOHN R. WARGO
VICE PRESIDENT, SERVICE AND MARKET DEVELOPMENT

MICHELE A. DENNY
MANAGER, MARKETING TECHNOLOGY AND CHANNEL MANAGEMENT

SUBJECT: Audit Report – PostalOne! Phase Two (Report Number DA-AR-03-001)

This report presents the results of our audit of the PostalOne! Phase Two Business
Customer Support System and Transportation Management (Project
Number 02BG005DA000). The Marketing Technology and Channel Management office
of the Postal Service requested this review. The objectives of our audit were to
evaluate management's corrective actions from our PostalOne! Phase One audit;
validate the business case; evaluate costs, benefits, and risks; and review internal
controls. We identified opportunities for the Postal Service to align systems to corporate
goals, objectives, and policies and mitigate risks; and to measure and evaluate
performance and customer satisfaction.

We identified opportunities for Postal service to align systems to corporate goals,
objectives, and policies and mitigate risks; and to measure and evaluate performance
and customer satisfaction. We made nine recommendations to management to
address these issues. These recommendations address improving customer
satisfaction with business mailers, achieving corporate goals, measuring and tracking
cots, mitigating security risks, complying with Section 508 of the Rehabilitation Act, and
strengthening internal controls.

Management agreed with all of our recommendations and indicated they are either
working to address or have resolved our issues. We view management’s comments as
responsive to our findings and recommendations. Management’s comments and our
evaluation of these comments are included in this report.
The Office of Inspector General (OIG) considers recommendations 1, 4, 6, 8, and
9 significant and, therefore, requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions, please contact Tracy LaPoint, director, Developmental and
Information Systems, at (703) 248-2167, or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: Anita J. Bizzotto
    Richard J. Strasser, Jr.
    Carole D. Koehler
    Keith Strange
    Paul E. Vogel
    Susan M. Duchek
PostalOne! Phase Two                                                       DA-AR-03-001




                       TABLE OF CONTENTS
 Executive Summary                                                              i

 Part l

 Introduction                                                                   1

    Background                                                                  1
    Objectives, Scope, and Methodology                                          2
    Prior Audit Coverage                                                        4

 Part II

 Audit Results                                                                  5

   Continued Improvement on Business Processes Needed                           5
     Timely Communication and Training Needed with Business Mailers             5
     Timely and Consistent Help Desk Reporting Needed                           7
   Recommendations                                                              8
   Management’s Comments                                                        8
   Evaluation of Management’s Comments                                          8

   Adoption of Roles and Responsibilities Essential for Achieving               9
    Business Case
   Recommendation                                                              9
   Management’s Comments                                                       9
   Evaluation of Management’s Comments                                        10

   Weaknesses in Measuring and Tracking Costs and Benefits                    11
     Metrics to Measure Success and Sensitivity Analysis are                  11
       Required
     Noncompliance in Tracking and Reporting Costs                            12
   Recommendations                                                            13
   Management’s Comments                                                      13
   Evaluation of Management’s Comments                                        13

   Noncompliance with Security Certification and 508 Disability Policies      14
     Security Certification Required and Sensitivity Classification           14
       Reconsidered
     Noncompliance with Section 508                                           15
     Audit Comment                                                            16
   Recommendations                                                            16
   Management’s Comments                                                      17




                                  Restricted Information
PostalOne! Phase Two                                                  DA-AR-03-001



   Evaluation of Management’s Comments                                   17

   Postal Service Interests Not Sufficiently Protected in Contract       18
    Administration

   Appendix A. Statistical Analysis of Questionnaire for PostalOne!      19
               Phase Two

   Appendix B. Management’s Comments                                     23




                                   Restricted Information
PostalOne! Phase Two                                                      DA-AR-03-001



                         EXECUTIVE SUMMARY
 Introduction          In April 2002, the Postal Service Board of Governors
                       approved the PostalOne! Phase Two Business Customer
                       Support System. This system provides electronic
                       capabilities between large business mailers and the Postal
                       Service for the induction of mail. As part of Phase Two, in
                       December 2001, the PostalOne! Transportation
                       Management Decision Analysis Report was approved. This
                       system scans tray labels, captures weight information and
                       assigns mail via air or surface at the business mailer’s
                       facilities, while interfacing with the Surface-Air Management
                       System for mail transportation assignments.

                       In this audit, which was requested by the Marketing
                       Technology and Channel Management office, we evaluated
                       management's corrective actions from our PostalOne!
                       Phase One audit, validated the business case; evaluated
                       costs, benefits, risks; and reviewed internal controls.

 Results in Brief      PostalOne! Business Customer Support System and the
                       Transportation Management have a strong potential to
                       provide integration capabilities for acceptance and delivery
                       of mail, and other corporate functions. While there are
                       many benefits in deploying PostalOne!, we identified the
                       following:

                       PostalOne! program management took appropriate
                       corrective actions on our PostalOne! Phase One audit
                       recommendations. However, we found improvements are
                       still necessary for program management to provide timely
                       training and notification of system changes to business
                       mailers, as well as consistently capturing all operational and
                       system problems based on calls to the help desk. Unless
                       these concerns are addressed, the PostalOne! Business
                       Customer Support System and the Transportation
                       Management will not be truly effective.

                       Our review of the PostalOne! business case revealed
                       program managers and the chief technology officer have not
                       formally adopted roles and responsibilities on PostalOne!
                       systems development and integration of Phase Two with the
                       Information Platform. Unless these roles and
                       responsibilities are formally defined, the lack of




                                          i
                               Restricted Information
PostalOne! Phase Two                                                        DA-AR-03-001




                       accountability for the PostalOne! system development and
                       integration will hinder Information Platform’s corporate
                       goals.

                       We reviewed the initial Decision Analysis Reports for the
                       Business Customer Support System and found that overall
                       performance measures were not established, sensitivity
                       analysis was not performed, and investment progress was
                       not properly tracked. Unless the PostalOne! program office
                       establishes performance-tracking methods following Postal
                       Service policies and ensures compliance; the project may
                       not meet the savings projected in the Decision Analysis
                       Report.

                       The security certification processes for both PostalOne!
                       Phase Two systems were not initiated. During our site visits
                       we found security vulnerabilities with both systems. In
                       addition, we found that the Operations Facilities Module
                       under the Business Customer Support System was not
                       compliant with Section 508 of the Rehabilitation Act.
                       Omitting a security assessment from the security
                       certification process could increase the likelihood of
                       unacceptable losses. Also, PostalOne! could be removed
                       from the Postal Service’s web environment, for
                       noncompliance with Section 508 of the Rehabilitation Act.

                       PostalOne! program officials reviewed and verified invoices
                       for payments to vendors without being designated in writing
                       as contracting officer representatives. In addition, one
                       program manager did not receive training on contracting
                       officer representatives’ duties. Since training is essential to
                       properly administer contracts, it is uncertain whether the
                       invoice certification process protected Postal Service
                       interests.

                       The program offices have been very responsive in taking
                       action on many of the issues we identified during our audit.

 Summary of            Our report included nine recommendations to management.
 Recommendations       These recommendations addressed improving customer
                       satisfaction with business mailers, achieving corporate
                       goals, measuring and tracking costs, mitigating security
                       risks, complying with Section 508 of the Rehabilitation Act,
                       and strengthening internal controls.


                                          ii
                               Restricted Information
PostalOne! Phase Two                                                       DA-AR-03-001




 Summary of              Management agreed with our findings and
 Management’s            recommendations to improve management processes,
 Comments                adopt roles and responsibilities for system development and
                         integration with Information Platform, establish metrics to
                         measure success, track and report costs, review security
                         controls, mitigate risks, and enhance contract administration
                         controls. Management’s comments, in their entirety, are
                         included in Appendix B of this report.

 Overall Evaluation of   Management’s comments and actions taken or planned are
 Management’s            responsive to our findings and recommendations and
 Comments                should correct the issues identified in the report.




                                           iii
                                 Restricted Information
PostalOne! Phase Two                                                      DA-AR-03-001



                              INTRODUCTION
 Background            In February 2000, the Board of Governors approved the
                       Decision Analysis Report for research and development,
                       recommending an investment of $10.1 million to develop
                       and pilot PostalOne! Phase One Business Customer
                       Support System. This system provides electronic
                       capabilities for the acceptance of mail from large business
                       mailers by the Postal Service.

                       As part of PostalOne! Phase Two, in May 2002, the Board
                       of Governors approved the Decision Analysis Report for
                       $54.1 million to further develop and implement the Business
                       Customer Support System, in addition to, reengineering the
                       Permit System and replacing obsolete equipment.

                       In December 2001, as part of Phase Two, a $4.2 million
                       Decision Analysis Report for the PostalOne! Transportation
                       Management was approved. This system scans tray
                       labels, captures weight information, and assigns mail via air
                       or surface at the business mailer’s facilities. This system
                       interfaces with the Surface-Air Management System for mail
                       transportation assignments.

                       These two systems will allow the Postal Service to efficiently
                       collaborate with its business mail customers, who generate
                       over 73 percent of all mail volume and over $34 billion of
                       revenue annually. The Postal Service entered into
                       partnerships with four major contractors. The contracting
                       officers are responsible for administering PostalOne! Phase
                       Two contracts. The program managers for PostalOne!
                       acted as the contracting officer representatives, which
                       included reviewing and certifying vendor payments.

                       The intent of PostalOne! Phase Two is to allow an electronic
                       partnership between the Postal Service and its large volume
                       business mailers and ultimately streamline the mail
                       acceptance and verification process, and to properly align
                       customer production with the Postal Service’s distribution
                       activities. PostalOne! will provide five business capabilities
                       to business mailers as shown in Figure 1.




                                          1
                               Restricted Information
PostalOne! Phase Two                                                                                            DA-AR-03-001




                                                PostalOne!
                                            5 Business Capabilities

                                                             eInformation Exchange / Access

                                                             eDocumentation

                                                             eAcceptance / Verification

                                                  $
                                                             ePayment Processing

                                                             eTransportation Management




                              Figure 1. Five Business Capabilities of PostalOne!


                       The Postal Service is undertaking an “Information Platform”
                       initiative to realize financial and service benefits by enabling
                       better resource management, mailpiece information and
                       communications, and activity based costing. PostalOne! is
                       one of four cornerstone initiatives of the Information
                       Platform and is the foundation program for the Postal
                       Service’s Sales and Marketing business area, as shown in
                       Figure 2.


                                            PostalOne!
                                            Key Component of the Mail Value Chain

                                             ne!
                                        talO
                                    Pos
                                                                   P
                                                                   POOIS        SAMS
                                                               !
                                                            ne                           DO
                                                         lO                                 IS
                                     ORIGINATE       sta                                            RECEIVE
                                                   Po
                                    BUSINESS                                                      HOUSHOLD
                                      RECEIVE                                                       ORIGINATE

                                                                   PostalOne!
                                                                    Database

                                          Making it easier to induct mail

                                                      Providing information about the mail

                                                                      Committing to service performance




                                Figure 2. Information Platform Mail Value Chain


 Objectives, Scope,    The objectives of our audit were to review the PostalOne!
 and Methodology       Phase Two Business Customer Support System and
                       Transportation Management to:


                                          2
                               Restricted Information
PostalOne! Phase Two                                                      DA-AR-03-001




                        •   Evaluate management’s corrective actions on our
                            previous audit.

                        •   Validate the business case.

                        •   Evaluate costs, benefits, and risks.

                        •   Review internal controls.

                       To evaluate management’s corrective actions, we surveyed
                       and interviewed business mailers, and reviewed business
                       mailers’ calls to the help desk. We also interviewed Postal
                       Service officials and contract employees. In many cases,
                       Postal Service employees provided us with hardcopy
                       documentation to corroborate or support interviews. We
                       coordinated with the statistician within the Office of
                       Inspector General (OIG).

                       To validate the business case, we reviewed and analyzed
                       several documents and reports on PostalOne! We also
                       interviewed contractor personnel and Postal Service officials
                       at headquarters.

                       To evaluate the costs, benefits, and risks, we reviewed and
                       analyzed several documents and reports on the PostalOne!
                       Business Customer Support System and Transportation
                       Management, including contract and finance information,
                       and operational data. We also interviewed contractors and
                       Postal Service officials at headquarters and in the field. In
                       some cases, program managers and contract employees
                       provided us with operational data from Postal Service
                       systems to corroborate interviews. We did not verify nor
                       rely on the computer-generated data provided. We
                       coordinated with the cost benefit analyst and computer
                       specialists within the OIG.

                       To review internal controls, we reviewed and analyzed
                       several documents and reports on PostalOne! including
                       contract information. We also interviewed contractor
                       personnel and Postal Service officials at headquarters. We
                       coordinated with contract specialists within the OIG.




                                          3
                               Restricted Information
PostalOne! Phase Two                                                      DA-AR-03-001




                        This audit was conducted from December 2001 through
                        October 2002 in accordance with generally accepted
                        government auditing standards. We reviewed internal
                        controls related to the PostalOne! Phase Two Business
                        Customer Support System and the Transportation
                        Management to the extent considered necessary. We
                        discussed our conclusions and observations with
                        appropriate management officials and included their
                        comments, where appropriate.

 Prior Audit Coverage   On September 28, 2000, we issued a report entitled,
                        Information Platform Planning, (Report Number DA-AR-00-
                        004). We stated that the Information Platform program was
                        not fully aligned with the Postal Service's strategic goals
                        and plans, expected benefits were not adequately
                        supported, a comprehensive funding strategy was not
                        completed, and other business areas that affected the
                        program were not appropriately integrated. Management
                        agreed with all of our recommendations and stated they
                        would incorporate our findings into the Information Platform
                        program plan.

                        On April 9, 2001, we issued a report entitled PostalOne!
                        Business Customer Support Systems Phase One (Report
                        Number DA-AR-01-004). We stated that the program office
                        should update the current PostalOne! business
                        requirements before proceeding to Phase Two; complete
                        pilot testing prior to deployment of Phase Two; and improve
                        communication and coordination between the PostalOne!
                        program office, its business mailers, and the Information
                        Platform group. Management agreed with all of our
                        recommendations and stated they were working to address
                        these issues.




                                           4
                                Restricted Information
PostalOne! Phase Two                                                                                   DA-AR-03-001



                                             AUDIT RESULTS
    Continued                      PostalOne! program management took appropriate
    Improvement on                 corrective actions on the recommendations made in our
    Business Processes             audit of PostalOne! Phase One. However, we found that
    Needed                         improvements are still needed in business processes.
                                   Specifically, program management was not providing
                                   timely training and notification of system changes to
                                   business mailers. Also, program management was not
                                   consistently capturing all operational and system
                                   problems. Unless these concerns are addressed and put
                                   in place before national deployment, the PostalOne!
                                   Business Customer Support System and Transportation
                                   Management will not be truly effective.

    Timely Communication           We conducted a survey (see Appendix A) and determined
    and Training Needed            that the business mailers generally found the PostalOne!
    with Business Mailers          Business Customer Support System and Transportation
                                   Management to be beneficial and reliable, as described in
                                   Figure 3.




                                                                25
                                             No. of Responses




                                                                20                      22
                                                                15   18                               Excel/Good
                                                                                              8
                                                                10            5                       Fair/Poor

                                                                5
                                                                0
                                                                     BCSS               TMS
                                                                          Business Mailers




                                            Figure 3. Results of PostalOne! Reliability Survey1


                                   However, the survey results for the Business Customer
                                   Support System revealed concerns about the timeliness of
                                   communication and training, as shown in Figure 4.



1
 Results of the reliability survey are based only on the results of e-mail and telephone responses received from
business mailers.



                                                                     5
                                                          Restricted Information
PostalOne! Phase Two                                                                                          DA-AR-03-001




                                                 60%      55%
                                                                               45%           45%
                                                 50%
                                                                            35%




                                   Projections
                                                 40%                                             29%         Excel/Good
                                                                 22%                                   26%
                                                 30%          23%                                            Fair/Poor
                                                                                     20%
                                                 20%                                                         No Opinion
                                                 10%
                                                 0%
                                                          Timeliness       Timeliness of    Program Office
                                                         Notification of     Training         Feedback
                                                          Upgrades
                                                                           Survey Ratings




                                   Figure 4. Results of PostalOne! Business Customer Support
                                                              System

                                When performing site visits2 to validate the survey results
                                for the Business Customer Support System and
                                Transportation Management, we confirmed that
                                weaknesses existed such as:

                                       •          Limited feedback from the program office on future
                                                  functionalities of PostalOne!

                                       •          Untimely notification of changes or upgrades made
                                                  to the system and/or system unavailability.

                                       •          Untimely training.

                                The success of the PostalOne! program depends heavily
                                on the satisfaction of the business mailers. Although the
                                program office took corrective actions on our prior audit
                                recommendations, we determined that the same
                                conditions still exist because of inconsistent
                                communication between program management and the
                                business mailers. This hindered the proper use and
                                understanding of the PostalOne! systems, which may lead
                                to dissatisfaction and eventual withdrawal from the
                                program.




2
 We selected and visited six Business Customer Support System customers and five Transportation Management
customers to validate survey data.



                                                                  6
                                                       Restricted Information
PostalOne! Phase Two                                                                          DA-AR-03-001




                                Since PostalOne! is a voluntary program, the participation
                                of major mailers is critical to the program’s ability to
                                achieve benefits outlined in the PostalOne! business case.

    Timely and Consistent       PostalOne! systems have inconsistent processes for
    Help Desk Reporting         reporting problems to the help desk. Specifically, program
    Needed                      offices were not ensuring that requirements in the Service
                                Level Agreement3 were being followed and had not
                                established reporting requirements for certified vendors.
                                Without capturing ongoing problems, system performance
                                cannot be accurately assessed and corrected by the
                                program offices.

                                In Memphis, Tennessee, the PostalOne! Business
                                Customer Support System help desk function was
                                submitting periodic reports to the program office.
                                However, these reports did not contain all the information
                                and did not follow weekly reporting requirements stated in
                                the Service Level Agreement. During April 2002, as a
                                result of our recommendation, the Memphis help desk
                                function started submitting compliant weekly reports to the
                                program office.

                                The Transportation Management program office did not
                                always receive timely reports on operational and system
                                issues. Currently the Transportation Management has
                                three certified vendors. Vendor A4 was reporting in a
                                timely fashion, as outlined in their contract. However, at
                                first, the Postal Service did not enter into contractual
                                agreements with vendors B and C, 5 because business
                                mailers purchased equipment directly from the vendors.
                                Vendors B and C have been awarded contracts, but the
                                request for proposal and statement of work did not include
                                reporting requirements.

                                Without timely capturing of operational and system
                                problems, Postal Service managers will not be able to fully
                                assess performance issues, improve system operations,
                                and identify future training requirements.


3
  The Service Level Agreement was established between the PostalOne! Business Customer Support System
Program Office with the National Customer Support Center.
4
  Vendor A supplies the Desktop and Automated Transportation Management.
5
  Vendors B and C supply the Automated Transportation Management.



                                                      7
                                           Restricted Information
PostalOne! Phase Two                                                     DA-AR-03-001




 Recommendation        We recommend the vice president, Service and Market
                       Development, and manager, Marketing Technology and
                       Channel Management:

                       1.   Implement the formal communication process
                            recommended in our PostalOne! Phase One audit
                            and notify business mailers in a timely manner of
                            system availability, upgrades, training, and added
                            functionalities.

 Management’s          Management agreed with the recommendation and
 Comments              indicated they have implemented several key initiatives,
                       both short-term and long-term, to formalize and improve
                       communications with business mailers.

 Recommendation        2. Obtain and review Memphis help desk reports
                          according to the Service Level Agreement.

 Management’s          Management agreed with the recommendation and
 Comments              indicated that the Memphis help desk is providing all
                       reports specified in the Service Level Agreement. The
                       program office reviews the reports weekly to determine
                       whether management actions are necessary to address
                       system performance or other issues.

 Recommendation        3. Establish a formal agreement with vendors B and C to
                          require reporting of operational and system issues.

 Management’s          Management agreed with the recommendation and stated
 Comments              that they are planning to draw formal agreements with
                       vendors to submit periodic reports on help desk issues to
                       the program office.

 Evaluation of         Management’s actions taken or planned should correct the
 Management’s          problems or resolve the issues identified in the report.
 Comments




                                          8
                               Restricted Information
PostalOne! Phase Two                                                                                DA-AR-03-001




    Adoption of Roles              PostalOne! program managers and the chief technology
    and Responsibilities           officer had not formally adopted roles and responsibilities for
    Essential for                  systems development and integration of Phase Two with the
    Achieving Business             Information Platform. As part of Phase Two, the Permit
    Case                           System will become an additional functionality of PostalOne!
                                   and, along with other corporate initiatives, PostalOne! will
                                   integrate with the Information Platform. According to Postal
                                   Service policies, information systems must be built in a
                                   standardized, repeatable, and efficient manner in order to
                                   achieve expected business benefits.

                                   Since the PostalOne! Phase One audit, communications
                                   between PostalOne! program management and the chief
                                   technology office have improved. Although, discussions have
                                   been held on formal roles and responsibilities for systems
                                   development and integration, these roles have not been
                                   defined, approved, or implemented.

                                   Unless these roles and responsibilities are formally defined,
                                   the lack of accountability for the Postal One! system
                                   development and integration will hinder the Postal Service’s
                                   corporate goals. The Postal Service’s challenge is to
                                   integrate information throughout the entire cycle of multiple
                                   business transactions, which will increase value to customers.

    Recommendation                 We recommend the vice president, Service and Market
                                   Development; and manager, Marketing Technology and
                                   Channel Management; in coordination with the chief
                                   technology officer:

                                   4. Define, adopt, approve, and implement roles and
                                      responsibilities for PostalOne! systems development and
                                      integration following the Postal Service’s Integrated
                                      Solutions Methodology.6

    Management’s                   Management agreed with the recommendation and stated
    Comments                       that they have formally adopted roles and responsibilities on
                                   systems development and integration in an official
                                   Transition Plan dated August 2002. This plan includes



6
 Integrated Solutions Methodology is a portal that provides a standard methodology, which includes a concept to
operations lifecycle framework of five phases and deliverables.



                                                        9
                                             Restricted Information
PostalOne! Phase Two                                                        DA-AR-03-001




                       establishing roles and responsibilities for the technical
                       architecture and system engineering that supports
                       systems development.

 Evaluation of         Management’s actions taken or planned should correct the
 Management’s          issues identified in the report.
 Comments




                                          10
                                Restricted Information
PostalOne! Phase Two                                                                                DA-AR-03-001




    Weaknesses in                 We reviewed the initial and final approved Decision Analysis
    Measuring and                 Reports for the Business Customer Support System and
    Tracking Costs and            Transportation Management. We found weaknesses in
    Benefits                      measuring and tracking costs and benefits, specifically:

                                       •   Success metrics were not defined.

                                       •   Sensitivity analysis was not included.

                                       •   A single finance number was used for multiple
                                           programs.

                                  Postal Service policy states that performance-tracking
                                  methods must be presented in support of projects.7 Also,
                                  Postal Service policy requires that a sensitivity analysis be
                                  included in the Decision Analysis Report to forecast
                                  probable outcomes for major projects.8 Unless the
                                  PostalOne! program office establishes performance-tracking
                                  methods following Postal Service policy, and ensures
                                  compliance; the project may not meet savings projected in
                                  the Decision Analysis Report.

    Metrics to Measure            Our initial review of the PostalOne! Phase Two Business
    Success and                   Customer Support System showed that two Decision
    Sensitivity Analysis are      Analysis Reports, dated September and December 2001,
    Required                      did not include specific metrics to measure program
                                  success nor a sensitivity analysis. In March 2002, the
                                  PostalOne! Decision Analysis Report was revalidated for the
                                  Board of Governor’s approval. Postal Service policies
                                  require developmental plans to include methodology and
                                  criteria to measure results, and also, require a sensitivity
                                  analysis to be included for major projects.

                                  Unless the Postal Service tracks the progress of PostalOne!
                                  Phase Two, the project may not meet its intended objectives
                                  or improve mission performance. For decision-making on
                                  capital investments, one way to evaluate project
                                  performance is to measure the project’s outcomes against
                                  the approved goals, objectives, and projected savings.

7
  Handbook F-66B Section 2-6.10 requires methodology and criteria to measure results be included in Research and
Development Decision Analysis Reports.
8
  Handbook F-66 Section 5-5 states that a sensitivity analysis should be included in the Decision Analysis Report
backup for most major projects. The number of sensitivity analyses should be consistent with the importance of the
project being evaluated.



                                                       11
                                             Restricted Information
PostalOne! Phase Two                                                                                     DA-AR-03-001




                                    During our audit, Capital and Program Evaluation, Revenue
                                    Assurance, and the PostalOne! program office determined
                                    that metrics to measure success and sensitivity analysis
                                    should be included in the revalidated Decision Analysis
                                    Report. In March 2002, the PostalOne! program office
                                    included these measures and sensitivity analyses in the
                                    revised Decision Analysis Report. A draft Plan to Measure
                                    Success that outlines performance measures was
                                    developed in May 2002.

    Noncompliance in                The program offices for PostalOne! Phase Two used
    Tracking and Reporting          finance number 68-0006 to track and report costs for the
    Costs                           Business Customer Support System and the Transportation
                                    Management. This finance number was assigned to
                                    PostalOne! Phase One. Postal Service policies require
                                    costs to be tracked and reported for compliance reports9
                                    and after cost studies.10 The program offices were unaware
                                    that separate finance numbers should be used for each
                                    approved Decision Analysis Report. Unless separate
                                    finance numbers are assigned to each approved Decision
                                    Analysis Report, it is difficult to track costs, report the
                                    project’s progress in compliance and investment highlight
                                    reports, and perform any after-cost studies.

                                    During our audit, the Capital and Program Evaluation
                                    performance group and PostalOne! program offices
                                    determined that separate finance numbers should be issued
                                    and used for the Business Customer Support System and
                                    Transportation Management programs. As a result, in
                                    accounting period 9 of Postal Service FY 2002, separate
                                    finance numbers were issued:

                                         •   66-0706 Business Customer Support System Phase
                                             Two.

                                         •   66-0707 Transportation Management Phase Two.




9
  Handbook F66 Section 7-4.1 states that the project sponsor is responsible for ensuring that costs for all projects are
tracked and reported using the appropriate Decision Analysis Reports.
10
   Handbook F66 Section 7-6.1 requires in part that cost data be collected continuously for 44 accounting periods to
be used for after-cost studies.



                                                         12
                                               Restricted Information
PostalOne! Phase Two                                                     DA-AR-03-001




 Recommendation        We recommend the vice president, Service and Market
                       Development; and the manager, Marketing Technology and
                       Channel Management; in coordination with the vice president,
                       Finance, controller:

                       5. Finalize success metrics and ensure they are included in
                          the compliance reports.

 Management’s          Management agreed with the recommendation and stated
 Comments              that the program office has started the work outline in the
                       plan for establishing the program’s benefit baseline.

 Recommendation        6. Review costs reported under PostalOne! Phase One
                          finance number 68-0006 and make necessary
                          adjustments to transfer costs to the appropriate
                          Phase Two finance numbers.

 Management’s          Management agreed with the recommendation and
 Comments              indicated that effective accounting period 10 FY 2002, both
                       programs started using their new finance numbers for
                       capital expenditures. In addition, as of September 7, 2002,
                       expense transactions are reported to their respective
                       finance numbers.

 Evaluation of         Management’s actions taken or planned should correct the
 Management’s          problem or resolve the issues identified in the report.
 Comments




                                         13
                               Restricted Information
PostalOne! Phase Two                                                                                  DA-AR-03-001




 Noncompliance with                The security certification and accreditation process for
 Security Certification            PostalOne! Phase Two was not initiated as required under
 and 508 Disability                Postal Service policies. The Business Customer Support
 Policies                          System was not certified because program management did
                                   not define who was responsible for initiating the process.
                                   The Transportation Management did not achieve
                                   certification because management was not aware that it was
                                   required. As a result, during our site visits, we found
                                   security vulnerabilities with both systems.

                                   The PostalOne! program managers submitted the Business
                                   Impact Assessments for the Transportation Management
                                   and the Business Customer Support System in January and
                                   June 2002, respectively. We noted that the Transportation
                                   Management is requesting a nonsensitive classification.

                                   Furthermore, the Operations Facilities Module11 of the
                                   Business Customer Support System, which was coded for
                                   production, was not compliant with Section 508 of the
                                   Rehabilitation Act.12 The module was still under
                                   construction and was not available to internal customers.
                                   PostalOne! could be removed from the Postal Service web
                                   environment for noncompliance.

 Security Certification            PostalOne! program management did not submit the
 Required and                      Business Impact Assessments to apply for security
 Sensitivity                       certification and accreditation for the PostalOne! Business
 Classification                    Customer Support System and Transportation Management.
 Reconsidered                      We determined that program managers for PostalOne! and
                                   Information Platform Sales and Marketing did not define who
                                   was responsible for initiating the security certification
                                   process for the Business Customer Support System.
                                   Program management was unaware that a security
                                   certification was required for the Transportation




11
   The Operations Facilities Module of PostalOne! is a feature that enables specific internal users at Postal Service
facilities to gather and view business mail data and perform forecasting.
12
   Postal Service policies state that Postal Service must follow Section 508 of the Rehabilitation Act. This policy
requires all federal agencies to take specific steps to make their electronic and information systems, including
computer hardware, software, telecommunications equipment, and web pages accessible to persons with disabilities.



                                                        14
                                              Restricted Information
PostalOne! Phase Two                                                                                       DA-AR-03-001




                                     Management, since vendors and business mailers have
                                     undergone a PostalOne! Assignment Support System
                                     certification.13

                                     During our site visits, we found the following security
                                     vulnerabilities:

                                         •    User accounts and passwords assigned during
                                              training were never changed and were being used to
                                              access the production systems.

                                         •    Many users were circumventing the application
                                              process for security access by not filing Postal
                                              Service Forms 1357.

                                         •    The systems did not have system administrators.

                                     Corporate security standards14 require a determination of
                                     the sensitivity and criticality of an application to assess
                                     which management, operational, and technical security
                                     controls are applicable. According to Handbook AS-805
                                     sensitive information, if lost, could cause significant financial
                                     loss, inconvenience, or delay in performance of the Postal
                                     Service mission.

                                     Omitting a security assessment from the security
                                     certification process could increase the likelihood of
                                     unacceptable losses. In addition, improperly classifying
                                     information could result in users not properly safeguarding
                                     information, inadequate security controls being
                                     implemented, and inadequate protection, or recovery
                                     mechanisms being designed into either the system or a
                                     related process.

 Noncompliance with                  The operations facilities module under the Business
 Section 508                         Customer Support System was not compliant with
                                     Section 508 of the Rehabilitation Act. The module was
                                     under construction and was not available to internal

13
   PostalOne! Assignment Support System is a partnering between Transportation Management vendors and
business mailers to maximize benefits of PostalOne! through standardization, process improvements, and quality
control. Partners and vendors who demonstrate through testing that facilities or systems have attained optimal
operating conditions are awarded the certification.
14
   Postal Service’s new Handbook AS-805 requires that the Business Impact Assessment be filed to determine
sensitivity and criticality levels of information resources for security certification. The handbook establishes security
requirements and controls to safeguard Postal Service’s information infrastructure.



                                                           15
                                                 Restricted Information
PostalOne! Phase Two                                                       DA-AR-03-001



                       customers. However, the Business Customer Support
                       System website was registered in the Enterprise Information
                       Repository as compliant with Section 508 and the program
                       office notified the Postal Service Internet Services Group
                       that PostalOne! was compliant.

                       PostalOne! went into production during April 2002 and only
                       specific users have access and view privileges to the
                       operations facilities module. The module has been coded
                       for production but will not be available to internal Postal
                       Service customers until March 2003.

                       The Postal Service’s Section 508 Web-Accessibility
                       Guidelines state in part that federal agencies should take
                       specific steps to make their electronic and information
                       systems, including computer hardware, software,
                       telecommunications equipment, and web pages, accessible
                       to persons with disabilities. Additionally, all web pages
                       currently under construction must comply with Section 508
                       before they are posted.

                       Noncompliance with Section 508 of the Rehabilitation Act
                       and related Postal Service policies limit the ability of
                       intended users to access PostalOne! This could impact
                       internal users at Postal Service facilities to gather and view
                       business mail data and perform forecasting and delay
                       business operations. Also, formal complaints could possibly
                       be made and PostalOne! could be removed from the Postal
                       Service web environment for noncompliance.

 Audit Comment         The OIG is currently conducting a Security Vulnerability
                       Assessment on the PostalOne! Business Customer Support
                       System. The results of this review will be issued in a
                       separate report.

 Recommendation        We recommend the vice president, Service and Market
                       Development and the manager, Marketing Technology and
                       Channel Management, in coordination with the Chief
                       Technology Officer:

                       7. Certify that the PostalOne! Phase Two systems comply
                          with the new Postal Service Handbook AS-805 for
                          security certification and retrain all system users on the
                          new requirements.




                                         16
                               Restricted Information
PostalOne! Phase Two                                                       DA-AR-03-001




 Management’s          Management agreed with the recommendation and stated
 Comments              that the PostalOne! Business Customer Support System
                       Business Impact Analysis for security certification was
                       approved in June 2002. See recommendation 8
                       management’s comments on security certification for
                       PostalOne! Transportation Management.

 Recommendation        We recommend the vice president, Service and Market
                       Development, and the manager, Marketing Technology and
                       Channel Management, in coordination with the Chief
                       Technology Officer:

                       8. Reassess the nonsensitivity classification of the
                          Transportation Management to ensure data integrity.

 Management’s          Management agreed with the recommendation and stated
 Comments              that the PostalOne! Transportation Management submitted
                       a Business Impact Analysis for security certification
                       requesting a nonsensitivity classification. However, in light
                       of the OIG recommendation the PostalOne! team will
                       reassess the security classification.

 Recommendation        9. Notify the Internet Services Group once the PostalOne!
                          Operations Facilities Module is compliant with
                          Section 508 of the Rehabilitation Act.

 Management’s          Management agreed with the recommendation and stated
 Comments              that they will notify the Internet Service Group once the
                       Operational Facilities Module is 508 compliant, targeted for
                       March 2003.

 Evaluation of         Management’s actions taken or planned should correct the
 Management’s          problem or resolve the issues identified in the report.
 Comments




                                         17
                               Restricted Information
PostalOne! Phase Two                                                          DA-AR-03-001




 Postal Service           PostalOne! program officials reviewed and verified invoices
 Interests Not            for payments to vendors without being designated in writing
 Sufficiently Protected   as contracting officer representatives. In addition, we
 in Contract              determined that one program manager was not trained in
 Administration           contract administration. In reviewing the contract files, we
                          found no evidence of training waivers.

                          The Purchasing Manual states that contracting officers may
                          delegate authority to employees; however, delegation must
                          be in writing and placed in the contract file. The Purchasing
                          Manual also states that contracting officer representatives
                          must be trained, unless they receive waivers from the
                          contracting officer.

                          Since the program manager was not trained to administer
                          contracts, the contracting officers could not guarantee that
                          the PostalOne! program manager had taken all actions to
                          ensure that vendors complied with the contract terms and
                          the Postal Service’s interests were protected.

                          During our audit, we discussed the above issues with
                          PostalOne! program management. As a result, Postal
                          Service officials were proactive in taking corrective action.
                          The contracting officers for PostalOne! master contracts filed
                          delegation of authority letters designating contracting officer
                          representatives to perform certain duties, including certifying
                          invoices for payment. In addition, in July 2002, the program
                          manager completed the necessary training and was
                          certified. Therefore, we are not making any additional
                          recommendations in this area.




                                            18
                                  Restricted Information
PostalOne! Phase Two                                                          DA-AR-03-001



                                    APPENDIX A
   STATISTICAL ANALYSIS OF QUESTIONNAIRE FOR PostalOne! PHASE TWO

Purpose of the Sampling

One of the objectives of this audit was to determine whether the Postal Service
Business Customer Support System and the Transportation Management are meeting
customer needs, particularly in problem areas identified in prior work by the OIG. In
support of this objective, the audit team employed a questionnaire to collect information
from mailers in the two programs.


Definition of the Audit Universe

The audit universe of active participants in the Business Customer Support System
consists of 45 customers as of January 2002. Postal Service management provided the
universe data.

The audit universe of active participants in the Transportation Management consists of
51 customers as of January 2002. Postal Service management provided the universe
data.


Analysis Plan and Modifications

Because of the small number of active participants in the two programs, the audit team
attempted to obtain responses from all participants. All Business Customer Support
System sites were sent a message informing them of the purpose of the questionnaire.

The 45 Business Customer Support System mailers was initially contacted by electronic
mail. After the first set of 28 responses were received, we determined that six mailers
on the universe list were actually all the same, as a single individual responded
identically for all six. Therefore, the universe was reduced to 40 separate entities and
the number of responses counted as 23. By additional follow up, three more responses
were obtained by e-mail. For on-site follow-up of nonresponses, the team visited
five sites selected from those who did not respond to the e-mail questionnaire. At the
end of the data collection, nine nonresponses remained in the audit universe of 40.

The team attempted to contact all 51 Transportation Management customers by
telephone. They obtained 30 responses. Four active users who did not respond to the
telephone survey were randomly selected for review based on audit limitations related
to travel and time required for interviews.




                                             19
                                   Restricted Information
PostalOne! Phase Two                                                         DA-AR-03-001




Analysis and Projections

Methodology
For the Business Customer Support System survey, the responses were analyzed using
the formulas for estimation of the population proportion for a simple random sample, as
described in Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1996. We
used a 95 percent confidence for the probability interval for the responses. This
approach is not unbiased, however, because the respondents were self-selecting, as is
typically the problem in surveys of this type. Therefore, use of the point estimate and
the upper and lower bound based on responses presumes that nonrespondents would
have answered similarly to respondents. Our analysis of the follow up to original
nonresponses indicates that such an assumption might be acceptable for some of the
survey questions but was not generally valid.

Therefore, because the number of nonresponses had been reduced to nine, we
considered the maximum effects possible from the remaining nonresponses by
calculating logical bounds as extremes: what the results would have been if all
nine nonresponses had gone the same way, either all “positive” or all “negative.”

In all cases, the actual number of responses in a given category was allowed to override
a calculated bound.

For the Transportation Management responses, no projections were made because of
the large number of nonresponses and the inability to get sufficient follow-up data to
analyze the nonresponse pool. The data presented in the text are limited to the
responses obtained.




                                             20
                                   Restricted Information
PostalOne! Phase Two                                                                      DA-AR-03-001




Results for Business Customer Support System Survey

A. Web Applications Rating

Business Customer Support System Web Applications Rating
                                                              Lower       Upper
                                  Number of    Projection     bound       bound     Logical      Logical
                                  responses      point       based on    based on    lower        upper
    Attribute and rating           in survey    estimate    responses   responses   bound        bound
                     Good or
                                      18          58%           49%       67%         45%          68%
                     excellent
System reliability
                     Fair or
                                      5           16%           13%       23%         13%          35%
                     poor
                     Good or
                                      22          71%           63%       78%         55%          78%
                     excellent
User friendliness
                     Fair or
                                      4           13%           10%       19%         10%          33%
                     poor
                     Good or
                                      19          61%           53%       70%         48%          70%
   Information       excellent
     content         Fair or
                                      6           19%           15%       26%         15%          38%
                     poor
                     Good or
                                      19          61%           53%       70%         48%          70%
 Accessibility of    excellent
  information        Fair or
                                      5           16%           13%       23%         13%          35%
                     poor
                     Good or
                                      20          65%           56%       73%         50%          73%
                     excellent
 Documentation
                     Fair or
                                      3           10%           8%        15%          8%          30%
                     poor
                     Good or
  Timeliness of                       17          55%           46%       64%         43%          65%
                     excellent
     system
                     Fair or
changes/upgrades                      7           23%           18%       30%         18%          40%
                     poor
                     Good or
                                      11          35%           28%       44%         28%          50%
                     excellent
     Training
                     Fair or
                                      14          45%           36%       54%         35%          58%
                     poor
                     Good or
    Customer                          18          58%           49%       67%         45%          68%
                     excellent
 Assistance/Help
      Desk           Fair or
                                      5           16%           13%       23%         13%          35%
                     poor
Overall, has         Very
                                      8           26%           20%       34%         20%          43%
PostalOne!           beneficial
Business             Somewhat                                                           not          not
Customer Support                      11          35%           28%       44%       calculated   calculated
                     beneficial
System proven
beneficial to your   Not
                                      2           6%            5%        12%          5%          28%
company              beneficial
[Results do not necessarily add to 100 percent in a given response category because some respondents
left answers blank.]




                                                     21
                                           Restricted Information
PostalOne! Phase Two                                                                    DA-AR-03-001



B. Communication Ratings

Business Customer Support System Communication Ratings
                                                             Lower       Upper
                              Number of      Projection      bound       bound     Logical   Logical
                              responses        point        based on    based on    lower     upper
   Attribute and rating        in survey      estimate     responses   responses   bound     bound
                  Good or
                                  14             45%           37%       54%        35%       58%
Feedback from     excellent
program office    Fair or
                                  9              29%           23%       38%        23%       45%
                  poor
                  Good or
                                  13             42%           34%       50%        33%       55%
                  excellent
Teleconferences
                  Fair or
                                  7              23%           18%       34%        18%       44%
                  poor
                  Good or
                                  12             39%           30%       47%        30%       53%
     Email        excellent
  notifications   Fair or
                                  9              29%           23%       38%        23%       45%
                  poor
                  Good or
                                  17             55%           46%       63%        43%       65%
                  excellent
Web Page notes
                  Fair or
                                  5              16%           13%       31%        13%       35%
                  poor
                  Good or
                                  16             52%           43%       60%        43%       63%
                  excellent
  Help Desk
                  Fair or
                                  7              23%           18%       34%        18%       40%
                  poor




                                                     22
                                           Restricted Information
PostalOne! Phase Two                                 DA-AR-03-001



                 APPENDIX B. MANAGEMENT’S COMMENTS




                                      23
                            Restricted Information
PostalOne! Phase Two                            DA-AR-03-001




                                 24
                       Restricted Information
PostalOne! Phase Two                            DA-AR-03-001




                                 25
                       Restricted Information
PostalOne! Phase Two                            DA-AR-03-001




                                 26
                       Restricted Information
PostalOne! Phase Two                            DA-AR-03-001




                                 27
                       Restricted Information
